U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 5, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Blake Taylor v. United States of America,
S.Ct. No. 21-5065
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 6, 2021,
and placed on the docket on July 9, 2021. The government’s response is due on August 9, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 8, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

21-5065
TAYLOR, BLAKE
USA

JAMES MATTHEW WRIGHT
OFFICE OF THE FEDERAL PUBLIC DEFENDER
500 S. TAYLOR
SUITE 110
AMARILLO, TX 79109
806-324-2370
MATTHEW_WRIGHT@FD.ORG

